uoort<+ nppecii: i»-1 hoo

uuu:

riieu; uo/^»/^u<iu

ry: i ui h

Xcc-Ar
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1488

BARRINGTON BOYD,
Plaintiff - Appellant,
v.
TEACHERS INSURANCE AND ANNUITY ASSOCIATION OF AMERICA;
TIAA-CREF INDIVIDUAL AND INSTITUTIONAL SERVICES, LLC,
Defendants - Appellees.

Appeal from the United States District Court for the Western District of North Carolina, at
Charlotte. Graham C. Mullen, Senior District Judge. (3:17-cv-00224-GCM)
/

Submitted: April 3, 2020

Decided: May 29, 2020

Before GREGORY, Chief Judge, and HARRIS and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Kristen E. Finlon, ESSEX RICHARDS, Charlotte, North Carolina, for Appellant. Rebecca
K. Lindahl, Michaela C. Holcombe, KATTEN MUCHIN ROSENMAN LLP, Charlotte,
North Carolina, for Appellees.
Unpublished opinions are not binding precedent in this circuit.

UOWM1* M(jpt!cli:

I »-1 4-00

uuu:

riitiu: uo/^»/^u^u

ry: ^ ui 4

PER CURIAM:
Barrington Boyd appeals the district court’s order denying his partial motion for
summary judgment and granting his former employer Teachers Insurance & Annuity Ass’n
of America and TIAA-CREF Individual and Institutional Services, LLC (“TIAA”)’s
motion for summary judgment. On appeal, Boyd’s sole claim is that TIAA breached a
settlement agreement by including language on the Financial Industry Regulatory
Authority, Inc. (“FINRA”)’s Form U5 related to his termination that was not bargained for.
Finding no error, we affirm.
We “review[] de novo [a] district court’s order granting summary judgment.”
Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d 562, 565 n. 1 (4th Cir. 2015). “A
district court ‘shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.’”
Id. (quoting Fed. R. Civ. P. 56(a)). When a “district court’s grant of summary judgment
disposed of cross-motions for summary judgment, we consider each motion separately on
its own merits to determine whether either of the parties deserves judgment as a matter of
law.” Defenders of Wildlife v. N.C. Dep’t ofTransp., 762 F.3d 374, 392 (4th Cir. 2014)
(internal quotation marks omitted).
To establish a breach of contract claim under North Carolina law, a plaintiff must
establish “(1) existence of a valid contract and (2) breach of the terms of the contract.”
Wells Fargo Ins. Servs. USA, Inc. v. Link, 827 S.E.2d 458, 472 (N.C. 2019) (brackets and
internal quotation marks omitted). In interpreting the terms of the contract, “[i]f the
language is clear and only one reasonable interpretation exists, the courts must enforce the
2

uouh1*

Mppetu. i»-1 ‘too

UUC. £0

nitju: uo/^y/^u^u

ry; oui *t

contract as written; they may not, under the guise of construing an ambiguous term, rewrite
the contract or impose liabilities on the parties not bargained for and found therein.”
Hodgin v. Brighton, 674 S.E.2d 444, 446 (N.C. Ct. App. 2009) (internal quotation marks
omitted).
We conclude that the settlement agreement did not prohibit TIAA from including
the disputed language on the Form U5. The settlement agreement was clearly directed at
amending the termination explanation in the U5. However, FINRA required TIAA to
provide an explanation for the amendment. The settlement agreement was silent as to how
to explain the amendment.

TIAA’s explanation provides context to the reason for

termination contained in both U5s. As a licensed security professional represented by
counsel in drafting the settlement agreement, the district court rightfully concluded that
Boyd cannot claim ignorance of the fact that FINRA required an explanation for the
amendment to excuse his failure to negotiate language for the amendment. See Helms v.
Schultze, 588 S.E.2d 524, 527 (N.C. Ct. App. 2003) (“[T]he court’s only duty is to
determine the legal effect of the language used and to enforce the agreement as written.”
(internal quotation marks omitted)). Moreover, the mere fact that the agreement was silent
as to how TIAA should have explained the amendment does not render the settlement
agreement ambiguous.* See Myers v. Myers, 714 S.E.2d 194, 198 (N.C. Ct. App. 2011)

* In light of our conclusion that TIAA did not breach the settlement agreement, we
need not address the parties’ arguments as to whether Boyd waived his claim by
subsequently negotiating a second amendment to the U5 in December.
3

UOL/MH Mfjpecli: I »-1 M-OO

uuu: zo

meu; uo/£»/<;u^u

ry;

h ui h

(recognizing contract “is ambiguous if the writing leaves it uncertain as to what the
agreement was” (brackets and internal quotation marks omitted)).
Therefore, we affirm the district court’s order. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

4

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
CIVIL ACTION NO. 3:17-CV-00224-GCM
BARRINGTON BOYD,
Plaintiffs,
v.
TIAA-CREF INDIVIDUAL AND
INSTITUTIONAL SERVICES, LLC
TEACHERS INSURANCE AND
ANNUITY ASSOCIATION OF
AMERICA,
Defendants.

)
)
)
)
)
)
)

ORDER

)
)

THE COURT HELD a hearing in this matter on March 27, 2019. For the reasons stated
in open court, Defendant’s Motion for Summary Judgment (Doc. No. 20) is GRANTED and
Plaintiffs Motion for Partial Summary Judgment (Doc. No. 21) is DENIED.
SO ORDERED.

Signed: March 27, 2019

Graham C. Mullen
United States District Judge

1
Case 3:17-cv-00224-GCM Document 46 Filed 03/27/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
BARRINGTON BOYD,
Plaintiff,

)
)

)

DOCKET NO. 3:17-CV-224

)

vs.
TEACHERS INSURANCE AND ANNUITY
ASSOCIATION OF AMERICA;
TIAA-CREF INDIVIDUAL &
INSTITUTIONAL SERVICES, LLC,

)
)
)
)

Defendants.
TRANSCRIPT OF MOTION HEARING
BEFORE THE HONORABLE GRAHAM C. MULLEN
UNITED STATES SENIOR DISTRICT COURT JUDGE
WEDNESDAY, MARCH 27, 2019, AT 2:30 P.M.
APPEARANCES:
On Behalf of the Plaintiff:
KRISTEN E. FINLON, ESQ.
Essex Richards, P.A.
1701 South Boulevard
Charlotte, North Carolina

28203

On Behalf of the Defendants:
REBECCA K. LINDAHL, ESQ.
MICHAELA C. HOLCOMBE, ESQ.
Katten Muchin Rosenman LLP
550 S. Tryon Street, Suite 2900
Charlotte, North Carolina 28202
ALSO PRESENT:
HEATHER WHITE, ASSOCIATE GENERAL COUNSEL
JILL IAN M. TURNER, RMR, CRR, CRC
Official Court Reporter
United States District Court
Charlotte, North Carolina

2

1

(Court called to order on Wednesday, March 27, 2019,

2

commencing at 2:30 p.m.)

3

PROCEEDINGS
THE COURT:

4

All right.

We're here on the matter of

5

Barrington Boyd against TIAA motions for summary judgment, and

6

we have claims of retaliation and breach of contract from the

7

plaintiff, and the issues have been briefed.

8
9

How long do each of you think you're going to need
for arguing?

10
11

MS. LINDAHL:

This is Becky Lindahl on behalf of TIAA.

12

THE COURT:

13

MS. LINDAHL:

14

THE COURT:

15

MS. FINLON:

16

Approximately how long?
Fifteen minutes, Your Honor.
Fifteen.
And, Your Honor, Kris Finlon on behalf

of Mr. Boyd.

17
18

Approximately 15 minutes, Your Honor.

I think for plaintiff's motion about 15 minutes will
be fine as well.

19

THE COURT:

20

MS. FINLON:

All right.
Okay.

You may proceed then.

Your Honor, plaintiff has moved

21

for partial summary judgment on his breach of contract claim

22

only.

23

basis for plaintiff's claim is that the parties entered into a

24

settlement agreement in 2015, in June of 2015.

25

been terminated in March 2015.

And the basis for that motion is that -- well, the

Plaintiff had

And at the time of his

3

1

termination

2

stating that plaintiff was terminated for not meeting internal

3

performance expectations for his position,

4

time was two sentences.

5

of industry rules, no customer harm, not securities related,

6

but the first sentence referred to internal performance

7

expectations.

8
9

a U5 was submitted to FINRA by the defendants

The U5 at that

It said that there was no violation

Plaintiff then filed EEOC charges.
during his employment and one after.

He had filed one

And in the course of

10

settling those EEOC charges, the parties entered into an

11

agreement whereby TIAA was to file an amended U5; and in the

12

amended U5 the parties had agreed to language stating that

13

there had been a disagreement regarding internal policy

14

requirements for the position.

15

amendment was basically to change the first sentence of what

16

had been filed in the U5.

17

TIAA did file the U5.

So, in other words, the

They did include in the

18

explanation for termination that language, but then in the

19

explanation for that amendment they reinserted the same

20

language that had been in the previous U5 about a failure to

21

meet internal expectations.

22

the agreement by essentially putting in the same language that

23

the parties had agreed was not going to be on the U5.

24
25

Defendant

And in doing so, they breached

so in order to make out a breach of

contract claim, plaintiff needs to show two elements,

4

1

obviously.

2

second being that there was a breach.

3

the plain language of the agreement and the U5 shows that

4

there was a breach.

One being that there was a contract, and the
And so I believe that

5

Now, defendant has argued that plaintiff has waived

6

this claim by entering into --or agreeing to the filing of a

7

third U5 in December of 2015.

8

explanation for the amendment the fact that it was a more

9

accurate -- I don't have the language directly in front of me,

And that U5 had as an

10

but I believe it was essentially that it was a more accurate

11

explanation of the reason for his termination.

12

Unfortunately, that doesn't cure the breach of

13

contract.

And so defendant -- plaintiff has not waived his

14

breach of contract claim because he learned a year after that

15

amendment was made that an employer looking at his U5 could

16

see all previous amendments.

17

compounded there of the second -- or of the first amendment.

18

And so on that basis, plaintiff has filed a motion

So, in fact, it basically

19

for summary judgment, and I believe that he's entitled to

20

summary judgment on his breach of contract claim and that

21

claim should only be tried on the merits -- or on the damages.

22

I apologize.

23

THE COURT:

All right.

Do you want to be heard on

24

the defendant's motions for summary judgment as to the

25

retaliation claim being barred by time?

5

1

MS. FINLON:

Your Honor, I believe that defendant's

2

motion for summary judgment in terms of the time bar mentions

3

two different issues.

4

retaliation in the form of the U5.

5

brief, the EEOC charge that plaintiff filed race and

6

retaliation that's at issue in this case doesn't actually

7

mention the U5.

8

retaliation.

9

employment references that have been given by TIAA to

10

One is whether or not there was
And as I mentioned in my

The U5 is not what he's claiming was

His retaliation claim is based on negative

prospective employers.

11

THE COURT:

12

MS. FINLON:

What's the evidence that there were?
Employers have asked him for the

13

contact information and said that they are going to contact

14

somebody over at TIAA and then suddenly he is not getting

15

jobs, including the LPL witness, who I understand that there's

16

conflicting evidence on that.

17

Mr. Boyd that he was going to contact TIAA managers for

18

references.
THE COURT:

19

Okay.

But that individual did tell

What's the evidence that that

20

happened?

21

absence of further follow-up is evidence that it happened?

22

Isn't your argument that there's -- that the

MS. FINLON:

Yes.

That Mr. Boyd is -- has not --

23

despite his long successful career as a financial adviser has

24

not been able to secure other work.

25

fact that employers are saying we're going to contact TIAA for

And, you know, that the

6-

1

reference and then suddenly stop responding to Mr. Boyd's

2

communications or don't offer him a job.

3

THE COURT:

4

MS. FINLON:

Yes, sir.

5

THE COURT:

Not direct.

6

MS. FINLON:

7

THE COURT:

8

MS. LINDAHL:

9
10
11

Inferential.

Yes, Your Honor.
All right.

Ma'am.

Thank you, Your Honor,

I will start

with the retaliation claim that Ms. Finlon was just
discussing.
TIAA has moved for summary judgment on Mr. Boyd's
And I will say

12

retaliation claim on two principal grounds.

13

that we did not understand until Ms. Finlon's argument just

14

now that Mr. Boyd was not including the filing of the third --

15

or, excuse me

16

retaliation claim.

17

issue, I won't -- I won't waste the Court's time on arguing

18

about that.

19

of the second U5 form as part of his
So to the extent that that is not at

So then we're left with negative employment
And there's two reasons why that claim should be

20

references.

21

dismissed at this stage.

22

The EEOC charge was not brought until December 27 of 2016,

23

which means that Mr. Boyd can only obtain relief for any

24

allegedly retaliatory acts that took place between June 30 of

25

2016, which is 180 days before the EEOC charge was filed.

The first is that it's time-barred.

7

The only evidence that Mr. Boyd purported to put

1
2

forward about any job that he applied for or interviewed for

3

during that June to December 2016 time frame is the LPL

4

Financial job.
TIAA has put forth affirmative evidence that it was

5
6

not contacted for any job references during that June 30 to

7

December 2016 time frame nor any time frame other than two

8

phone calls outside of the statute of limitations to a neutral

9

employer reference line.

But they received no phone calls

10

asking for references during that time, did not give any

11

references during that time.

12

in the verified interrogatory answers of TIAA., which are

13

unrebutted in the record.

14

So that's

that is set forth

Those witnesses who were named in TlAA's

15

interrogatory answers have been disclosed and available to

16

Mr. Boyd throughout the discovery period in this case, and

17

there has been no contrary or contradictory discovery that has

18

been raised showing that anything about TlAA's verified

19

interrogatory answers is anything other than the absolute

20

truth.
In Mr. Boyd's response to TlAA's motion for summary

21
22

judgment, he submitted a declaration in which he said, I

23

applied for a job at LPL Financial.

24

Rhem, and he said he was going to contact TIAA for a job

25

reference.

I didn't get the job.

I met with Mr. Reece

Therefore, that is some

8

1

evidence that TIAA gave negative employment references.

2
3

is on the docket at No. 31, Exhibit 4 to TIAA's reply in

4

support of his motion for summary judgment.

5

Mr. Rhem testified, under oath, in his declaration

6

that he never contacted TIAA for an employment reference; he

7

never received any negative employment references from TIAA;

8

and he never referenced or looked at FINRA's online database

9

of U5 information.

10

Did not consult it in connection with

LPL's ultimate decision not to hire Mr. Boyd.

11

So the plaintiff bore the burden here to show some

12

evidence of retaliation during the period that is not

13

time-barred, and they have not done so.

14

The only evidence in the record is TIAA's unrebutted evidence

15

that it did not ask -- it was not asked for any negative --

16

excuse me.

17

give any job references, and was never contacted by LPL, and

18

that is corroborated by LPL.

19

He has not done so.

It was not asked for any job references, did not

So for that reason, Your Honor, TIAA asks that

20

Your Honor dismiss Mr. Boyd's retaliation claim at the summary

21

judgment stage.

22

\

TIAA obtained a declaration of Mr. Rhem, which

We

Under breach of contract

so there are
The parties do agree on

23

cross-motions for summary judgment.

24

most of the facts.

25

facts that Mr. Boyd's counsel put before the Court.

If I could just supplement some of the

9

1

The first is that the settlement agreement which

2

resolved two EEOC charges of discrimination that Mr. Boyd

3

submitted to the EEOC in January and March of 2015, that

4

settlement agreement is -- it's on the docket in many places.

5

Under that agreement, TIAA agreed to pay Mr. Boyd

6

$120,000 in exchange for a complete release of those two

7

claims.

8

agreement -- Mr. Boyd was represented by counsel -- there was

9

a paragraph that included specific language that TIAA was to

10

And as part of that negotiated settlement

include in the reason for termination form on the U5.

11

Well, TIAA as a FINRA member has to abide by FINRA

12

rules.

When you amend a U5, there has to be a reason given

13

for the amendment.

14

and TIAA is completely silent as to the reason for amendment

15

language.

16

The separation agreement between Mr. Boyd

So the original U5 stated that the reason for

17

termination was did not meet internal performance expectations

18

for position, and then there's standard language "No violation

19

of industry rules, no customer harm, not securities related."

20

That language appears on each iteration

21

each time.

22

so I won't repeat it

The agreed language that the parties stipulated to

23

in the separation agreement was, "Discharged:

24

regarding internal policy requirements for the position," and

25

then there's that sentence that appears in all three.

Disagreement

10

1

When TIAA submitted that U5, it was required to give

2

a reason.

3

internal policy expectations precipitated a conversation with

4

the employee as to what those expectations were and should be.

5

Ultimately, it was the inability to reach an understanding as

6

to what the job expectations were that resulted in the

7

separation."
That was an attempt by TIAA to harmonize the two

8
9

And so the reason it gave was, "The failure to meet

reasons given on the first U5 and the amended U5 and to give

10

truthful and accurate information to FINRA, as TIAA is

11

required to do as a FINRA member.

12

Shortly after that U5 was filed, TIAA heard from

13

Mr. Boyd's counsel that Mr. Boyd's counsel objected to the

14

reason for amendment --to the language and the reason for

15

amendment.

16

From that point forward -- and the timing of this is

17

set forth in the record in the attachments to the declaration

18

of Heather White.

19

Mr. Boyd's counsel and TIAA in which TIAA's in-house legal

20

department was engaging with Mr. Boyd's counsel and --

21

Mr. Boyd's former counsel.

22

different counsel today.

23

Mr. Boyd's counsel to make sure that any amended language in

24

the reason for amendment would be satisfactory to Mr. Boyd.

25

There were communications between

Mr. Boyd is represented by
But TIAA was engaging with

And as evident in the exhibits to Ms. White's

11

1

declaration, TIAA's in-house legal department was attempting,

2

was trying to drive this process forward, having to follow-up

3

with Mr. Boyd's counsel to say is this language okay, can we

4

get on the same page.

5

counsel said this language is fine, we're on the same page,

6

TIAA filed a further amendment of the U5, at Mr. Boyd's

7

request, to resolve, in TIAA's view, fully and finally the

8

purported breach of contract that the agreed U5 -- that TIAA

9

filed as a result of the separation agreement that Mr. Boyd

10

And the very day that Mr. Boyd's

alleges.

11

TIAA does not concede that its language breaches the

12

contract, but

nevertheless, it sought to accommodate Mr. Boyd

13

after being told that he believed it was a breach of contract.

14

And TIAA, in fact, did exactly what Mr. Boyd and his counsel

15

asked it to do.
With respect to the argument that appeared in some

16
17

of the briefs and also counsel raised it briefly earlier today

18

that the U5s remain available on FINRA's website, that is

19

true.

20

the separation agreement between Mr. Boyd and TIAA was

21

executed at the conclusion of the EEOC mediation.

22

versions of the U5 have always been available,

23

that is not new or unique to the U5 at issue here.

24
25

It has always been true, and it was true at the time

So all

That's not

Mr. Boyd has never asked TIAA either thorough this
court proceeding or in any other way to expunge his FINRA

12

But even if he had, TIAA cannot expunge FINRA

1

filings.

2

filings; only FINRA can do that.
\

So to the extent that there's an argument being

3
4

raised in the context of this summary judgment motion that the

5

failure to expunge the U5 is somehow a breach of the contract,

6

first

7

something that TIAA has the ability to do.

it's not mentioned in the contract; but it also is not

Your Honor, if I could consult with my client, I may

8
9

be -- I may be finished with my argument.

10

Thank you, Your Honor.

11

THE COURT:

All right, Counsel.

Let me take a brief

12

recess and confer with my law clerk about the arguments that

13

we've heard and the context of the briefs.

14

the briefs, I promise.

15

MS. LINDAHL:

16

MS. FINLON:

17

THE COURT:

18

Thank you, Your Honor.
Thank you.
And we'll be back in, and I will tell

you what we're going to do with this matter.
(The proceedings were recessed at 2:51 p.m. and

19
20

I have read all of

reconvened at 2:57 p.m.)
THE COURT:

21

All right.

I've seen the exhibits.

I have

22

briefs.

23

counsel.

24

statements made on the form sent to FINRA.

25

separate motions:

I've read the

I've heard the arguments of

I've read your separation agreement and.the
There's two

One is defendant's motion for summary

13

1

judgment and plaintiff's motion for a partial summary-

2

judgment .

3

First, the defendant's motion for summary judgment

4

as it pertains to the retaliation claim under Title VII.

5

Title VII requires a charge of discrimination be filed with

6

the EEOC within 180 days of the discriminatory act on which

7

that charge is premised.

8

2000e-5(e) (1).

9

provide competent evidence to show that his claim is timely.

That's in 42 U.S. Code

Defendant argues that plaintiff failed to

10

The Court finds that the plaintiff has failed to create a

11

genuine issue of material fact on this issue.

12

relies on a statement made by a prospective employer that they

13

intended to call plaintiff's references.

14

offer this testimony under Rule 803(3) in the Hillmon

15

doctrine.

16

Defendant, on the other hand, submitted sworn affidavits in

17

support of the fact that the defendant never provided negative

18

employment references about plaintiff to any prospective

19

employers.

20

prospective employer who made the statement upon which

21

plaintiff wants to rely.

22

employer stated that they never received a negative reference

23

from the defendant.

24
25

Plaintiff

Plaintiff intends to

This statement was made within the 180-day window.

The defendant also submitted a declaration of the

In that declaration, the prospective

Given these circumstances, the Court finds there is
no genuine issue of material fact.

The Court finds that

14

1

plaintiff's claim is time barred,

2

summary judgment as it pertains to the retaliation claim is

3

granted.

4

The defendant's motion for

Both parties have moved for summary judgment on the

5

breach of contract claim.

6

show there is no genuine issue of material fact remaining

7

which requires the Court to determine which side is deserving

8

of a judgment as a matter of law.

9

North Carolina requires two elements:

The facts surrounding the claim

Breach of contract in
One, the existence of a

10

valid contract; and, two, a breach of those terms of that

11

contract.

12

party disputes that the separation agreement is a valid

13

contract.

14

that agreement.

15

Poor v. Hill, 138 N.C. App. 19, 2000.

Neither

Thus, the issue is whether the defendant breached

First, the plaintiff argues that the defendant

16

breached the contract by including the amendment -- including

17

in the amendment explanation language in 2015 U5 submitted to

18

FINRA.

19

is not a breach of the separation agreement.

20

agreement is silent as to the amendment explanation section.

21

Thus, the language cannot be a direct violation of the

22

contract.

23

defeat the purpose of the agreement.

24

admitted that the purpose of the agreement was to remove the

25

reference to Mr. Boyd's failure to "meet internal performance

The Court finds that the amendment explanation section
The separation

Additionally, the language does not substantially
In his brief, plaintiff

15

1

expectations," Document No. 22, page 5.

2

not appear in the July U5.

3

plaintiff received the benefit of his bargain.

4

That language does

Thus, the Court finds that

Much has been made that all of plaintiff's U5s

5

remain accessible by prospective employers.

6

a known fact within the industry.

7

conduct adequate due diligence to understand the facts and

8

circumstances surrounding the contract negotiations and later

9

claim the defendant breached the contract due to plaintiff's

Plaintiff cannot fail to

10

failure.

11

explanation did not breach the contract.

12

This, however, is

Thus, the Court finds the defendant's amendment

Further, plaintiff also argued that defendant's

13

providing of negative employment references breached the

14

separation agreement.

15

offered statements of prospective employers made to him during

16

interviews.

17

to call the defendant to receive an employment recommendation.

18

Plaintiff argues that the Hillmon doctrine allows these to

19

show intent under Federal Rule of Evidence 803(3) and also

20

action in conformity with that intent under Hillmon.

21

statements of intent can be used to show action in conformity

22

therewith for the declarant, statements of intent cannot be

23

used to show action by third parties, citing U.S. v Jenkins,

24

579 F.2d 840, 843, Fourth Circuit, 1978.

25

In support of this argument, plaintiff

Each of the declarants stated that they intended

While

Plaintiff therefore has offered evidence that

16

1

prospective employers placed a call to defendant, but

2

plaintiff has offered no evidence that defendant answered.

3

Additionally, there is no evidence outside of mere conjecture

4

that the defendant did in fact answer and provide a negative

5

reference in breach of the agreement.

6

failed to create a genuine issue of material fact.

7

Thus, the plaintiff

For these reasons, the Court grants the defendant's

8

motion for summary judgment in its entirety and denies

9

plaintiff's motion for partial summary judgment.

10
11

Madam Clerk, the clerk is directed to prepare a
judgment in conformity with this ruling.

12

Thank you very much, Counsel.

13

MS. FINLON:

14

MS. LINDAHL:

15

(The proceedings concluded at 3:04 p.m.)

16
17
18
19
20
21
22
23
24
25

Thank you, Your Honor.
Thank you, Your Honor.

*

*

*

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CERTIFICATE OF OFFICIAL REPORTER
I, Jillian M. Turner, RMR, CRR, CRC, Federal Official
Court Reporter, in and for the United States District Court
for the Western District of North Carolina, do hereby certify
that pursuant to Section 753, Title 28, United States Code,
that the foregoing is a true and correct transcript of the
stenographically reported proceedings held in the
above-entitled matter and that the transcript page format is
in conformance with the regulations of the Judicial Conference
of the United States.
Dated this the 9th day of April 2019.

/s/ Jillian M. Turner
Jillian M. Turner, RMR, CRR, CRC
U.S. Official Court Reporter

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
CIVIL ACTION NO. 3:17-cv-00224-GCM
BARRINGTON BOYD,

)
)
)

Plaintiff,

)
)

v.

)

ORDER

)

TIAA-CREF INDIVIDUAL &
INSTITUTIONAL SERVICES, LLC
TEACHERS INSURANCE AND
ANNUITY ASSOCIATION OF AMERICA,

)
)
)

)
)

Defendants.

)
)

THIS MATTER is before the Court on Defendants’ Motion to Dismiss for Failure to State
a Claim (Doc. No. 8) filed with a Brief in Support of Motion to Dismiss (Doc. No. 8-1) on June
26, 2017. On July 10,2017 Plaintiff filed his Memorandum in Opposition to the Motion to Dismiss
(Doc. No. 9). Defendants filed a Reply in Support of Motion to Dismiss on July 21, 2017. (Doc.
No. 11). For the following reasons, Defendants’ Motion to Dismiss is DENIED.
I. BACKGROUND
Plaintiff Barrington Boyd (“Boyd”) is a licensed investment advisor with Series 7 and 66
qualifications. (Compl. at 2, ^ 9). He is an African-American man. (Compl. at 2,

9). Boyd

began working for Defendants Teachers Insurance and Annuity Association of America and
TIAA-CREF Individual and Institutional Services, LLC (collectively, “T1AA”) in June 2005,
and his employment was terminated on March 15, 2015. (Compl. at 2,

10-11). On March 24,

2015, TIAA submitted to the Financial Industries Regulatory Authority (“FINRA”) a Uniform

1
Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 1 of 11

Termination Notice for Securities Industry Regulation (“U-5”). (Compl. at 2, ]f 12). In the
section on the U-5 form provided for “Termination Explanation,” TIAA stated, “Did not meet
internal performance expectations for position. No violation of industry rules, no customer
harm, not securities related.” (Compl. at 2, f 12).
Boyd filed two Charges of Discrimination with the Equal Employment Opportunity
Commission (“EEOC”), asserting that TIAA discriminated against him on the basis of race, and
on June 16, 2015, Boyd and TIAA participated in a mediation with the EEOC. (Compl. at 2,
13-14). As a result of that mediation, on June 26, 2015, Boyd and TIAA entered into a
Separation Agreement and Release in Full (“Separation Agreement” or “the Agreement”).
(Compl. at 2,

15). Pursuant to that Agreement, on July 22, 2015, TIAA submitted a revised U-

5, replacing the language in the Termination Explanation section with “Disagreement regarding
internal policy requirements for position. No violation of industry rules, no customer harm, not
securities related.” (Compl. at 3, ^ 19). In the “Amendment Explanation” box immediately
below the Termination Explanation, TIAA stated, “The failure to meet internal policy
expectations precipitated a conversation with the employee as to what those expectations were
and should be. Ultimately, it was the inability to reach an understanding as to what the job
expectations were that resulted in the separation.” (Compl. at 3, ^ 20).
Boyd objected to the additional language in the Amendment Explanation, and TIAA
again amended the U-5 on December 7, 2015, stating in the Amendment Explanation section,
“Amended to accurately reflect the intent of the previous amendment.” (Compl. at 3, ]| 22-23).
Boyd alleges that he subsequently applied for numerous positions in the securities
industry and was denied as a result of the inaccurate language provided in the U-5 form, as well
as a result of negative references provided by TIAA. (Compl. at 4,

24-28).

2

Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 2 of 11

On December 27, 2016, Boyd filed a Charge of Discrimination with EEOC asserting a
claim of retaliation under Title VII of the Civil Rights Act of 1964. (Compl. at 4, f 29). On
January 23, 2017, the EEOC issued Boyd a Right to Sue Letter. (Compl. at 4,

30). On April

26, 2017, Boyd filed his Complaint alleging breach of contract and retaliation under Title VII.
(Compl. at 4-5).
II. LEGAL STANDARD
When faced with a motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil
Procedure, the Court must “accept as true all well-pleaded allegations and . . . view the complaint
in a light most favorable to the plaintiff.” Mylan Labs, Inc. v. Matkari, 7 F.3d 1130, 1134 (4th
Cir. 1993). The Court “assume[s] the[] veracity” of these factual allegations, and “determine[s]
whether they plausibly give rise to an entitlement to relief.” Ashcroft v. Iqbal, 556 U.S. 662, 679
(2009). However, the court “need not accept as true unwarranted inferences, unreasonable
conclusions, or arguments.” E. Shore Mkts., Inc. v. J.D. Assocs. LLP, 213 F.3d 175, 180 (4th
Cir. 2000). Thus, to survive a motion to dismiss, the plaintiff must include within his complaint
“sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its
face.’” Iqbal, 556 U.S. at 678 (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
III. DISCUSSION
A. Consideration of the Separation Agreement
Because both the breach of contract claim and the retaliation claim rely heavily on the
terms of the Separation Agreement, the Court must decide, as a threshold issue, whether or not
the Separation Agreement in its entirety may be considered at this stage of the litigation. Boyd
referenced it extensively in his Complaint but did not attach the entire Separation Agreement to
his Complaint. (See Compl. at 4-5). T1AA subsequently attached it to its Motion to Dismiss as

3

Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 3 of 11

Doc. No. 8-2 and argues that the Court may consider it because it “directly gives rise to Boyd’s
claims and is expressly referred to in Boyd’s Complaint.” (Defs.’ Br. at 6). Boyd likewise urges
the Court to consider the Separation Agreement without converting Defendants’ Motion into a
motion for summary judgment.
The Fourth Circuit has held that “[although as a general rule extrinsic evidence should
not be considered at the 12(b)(6) stage, ... ‘a court may consider it in determining whether to
dismiss the complaint [if] it was integral to and explicitly relied on in the complaint and [if] the
plaintiffs do not challenge its authenticity.’” Am. Chiropractic Ass ’n v. Trigon Healthcare, Inc.,
367 F.3d 212, 234 (4th Cir. 2004) (quoting Phillips v. LCIInt’lInc., 190 F.3d 609, 618 (4th Cir.
1999)). Because the Separation Agreement provides the basis for Boyd’s claim, is referenced
throughout the Complaint, and is not disputed, the Court concludes that it can consider the
Agreement in its entirety in assessing the plausibility of Boyd’s claims at this stage of the
litigation.
B. Breach of Contract
Boyd’s first cause of action is for breach of contract. Under North Carolina law, “[t]he
elements of a claim for breach of contract are (1) existence of a valid contract and (2) breach of
the terms of that contract.” Supplee v. Miller-Motte Bus. Coll., Inc., 768 S.E.2d 582, 590 (N.C.
Ct. App. 2015) (quoting Branch v. High Rock Lake Realty, Inc., 565 S.E.2d 248, 252 (N.C. Ct.
App. 2002)).
Here, TIAA concedes that the Separation Agreement constitutes a valid contract.
However, TIAA argues (1) that Boyd’s breach of contract claim is barred by a release under the
Separation Agreement, and (2) that even if Boyd did not release this claim, TIAA’s actions—as
alleged in Boyd’s Complaint—do not establish a plausible claim for breach of contract.

4
Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 4 of 11

First, TIAA asserts that Boyd’s claim is barred by a release in Paragraph 3 of the
Separation Agreement. Paragraph 3 of the Separation Agreement states:
TIAA will file with the appropriate depository within the Financial Industry Regulatory
Authority (“FINRA”) the amended explanation of “discharged: disagreement regarding
internal policy requirements for position. No violation of industry rules, no customer
harm, not securities related” on your “Uniform Notice for Securities Industry Regulation”
or “U-5.” To be clear, you agree not to challenge in any way the accuracy and/or
proprietary [sic] of the U-5 explanation above that TIAA will file with FINRA and to
release TIAA pursuant to Paragraphs 11 and 12 below, from any claim related to the
filing or content of that U-5 amendment.
(Separation Agreement, *[[ 3).
Paragraph 11 (b), in turn, states, “This release of claims does not extend to your
contractual right to enforce the terms of this Agreement or to any claims that may not be lawfully
released.” (Separation Agreement, ^[ 11(b)).
With respect to disputes over contract interpretation, “[a] contract that is plain and
unambiguous on its face will be interpreted by the court as a matter of law.” WakeMed v.
Surgical Care Affiliates, LLC, 778 S.E.2d 308, 312 (N.C. Ct. App. 2015) (quoting Commscope
Credit Union v. Butler & Burke, LLP, 764 S.E.2d 642, 651 (N.C. Ct. App. 2014)). On its face,
Paragraph 3 unambiguously prevents Boyd from challenging the “accuracy and/or proprietary
[sic]” of the agreed-upon language of the “amended explanation” to be filed in the U-5, thus
protecting TIAA from future lawsuits challenging that specific language. ■ Nowhere does it
prevent Boyd from suing to compel TIAA to submit the U-5 with the agreed-upon language or
from suing for damages based on TIAA’s failure to submit the U-5 with agreed-upon language.
Further, Paragraph 11 unambiguously preserves Boyd’s right to file suit to enforce the terms of
the Separation Agreement, including TIAA’s promise in Paragraph 3 to amend the U-5 to reflect
the agreed-upon language.

5

Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 5 of 11

Boyd’s ability to assert this claim is expressly retained in Paragraph 11. He does not run
t

afoul of Paragraph 3 by challenging the agreed-upon termination language in the Separation
Agreement. Rather, he seeks relief for TIAA’s alleged violation of Paragraph 3 by inserting
additional language into the U-5, which was “neither accurate nor consistent with the language in
Paragraph 3 of the Separation Agreement.” (Compl. at 3, 21). Thus, his breach of contract
claim is not barred by the release provisions of the Separation Agreement.
Second, TIAA asserts that, release notwithstanding, Boyd’s Complaint fails to allege
facts that would plausibly amount to a breach of the terms of the Separation Agreement with
respect to the filing of the U-5 form.1 Specifically, TIAA asserts that it did not breach the terms
of the Agreement because the Agreement is silent as to the wording of the “Amendment
Explanation” section of the amended U-5 and, regardless, that the given explanation comports
with the agreed-upon language.
Although the Agreement does not specifically mention the Amendment Explanation
section, Boyd’s Complaint alleges that a central aspect of the Agreement was changing the
language from the original U-5’s language of “did not meet internal performance expectations”
to the agreed-upon language of “disagreement regarding internal policy requirements.” (Compl.
at 2-3, fflf 12, 20). Boyd alleges that TIAA did amend the Termination Explanation to the
agreed-upon language but also placed additional language in the Amendment Explanation
section—immediately following the Termination Explanation—continuing to claim that there
was a “failure to meet internal policy expectations.” (Compl. at 2-3, Iflj 12).

1 Boyd’s Complaint also alleges that TIAA breached the Separation Agreement by providing negative references
about Boyd to other employers. (Compl. at 4). While TIAA denies this allegation, it concedes that—taken as true—
it raises a plausible claim for relief.

6
Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 6 of 11

This Court finds that Boyd’s Complaint raises a plausible claim for a breach of contract.
“In order for a breach of contract to be actionable it must be a material breach, one that
substantially defeats the purpose of the agreement or goes to the heart of the agreement, or can
be characterized as a substantial failure to perform.” Long v. Long, 588 S.E.2d 1,4 (N.C. Ct.
App. 2003). “The question of whether a breach of contract is material is ordinarily a question for
a jury.” Charlotte Motor Speedway, Inc. v. Tindall Corp., 672 S.E.2d691, 302 (N.C. Ct. App.
2009). Taking the factual allegations in Boyd’s Complaint as true, a jury could find that by
placing the language of “failure to meet internal policy expectations” into the U-5, just below the
Termination Explanation section, TIAA’s actions “substantially defeated] the purpose of the
agreement or [went] to the heart of the agreement, or can be characterized as a substantial failure
to perform.” See Long, 588 S.E.2d at 4.
Thus, TIAA’s motion to dismiss Boyd’s claim for breach of contract must be denied.
C. Retaliation Under Title VII
Boyd’s second cause of action is for retaliation under Title VII of the Civil Rights Act of
1964. Similar to its response to Boyd’s breach of contract claim, TIAA argues (1) that Boyd’s
retaliation claim is barred by a release under the Separation Agreement, and (2) that even if Boyd
did not release this claim, TIAA’s actions—as alleged by Boyd’s Complaint—do not establish a
plausible claim of retaliation under Title VII.
First, TIAA asserts that it is released from retaliation claims made by Boyd under the
Separation Agreement. Paragraph 11(a) of the Separation Agreement states, “Except as
otherwise set forth in this Agreement, the Separation Payment in Paragraph 2 represents full and
complete settlement in satisfaction of any and all claims you may have against TIAA arising on
or before the date you sign this Agreement.” (Separation Agreement, ^ 11(a)). Additionally, the

7
Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 7 of 11

Agreement releases and discharges TLAA “from any and all claims, in law or equity, which you
ever had or now have regarding any matter arising on or before the date you sign this
Agreement.” (Separation Agreement, f 11(a)).
Although Title VII retaliation claims fit within the category of claims waived in
Separation Agreement, ]j 11 (a)(i), Boyd’s claim did not arise “on or before the date” he signed
the Agreement. Both parties agree—and the Agreement itself shows—that the Separation
Agreement was signed on June 26, 2015. Taking Boyd’s factual allegations as true, TIAA
retaliated against him on July 22, 2015, when it filed the amended U-5 form, and at various other
points in time after the amended U-5 had been filed by providing negative references to other
employers. Prior to TIAA’s actions on these dates, Boyd did not have a colorable claim for
retaliation. Thus, the claims asserted by Boyd arose after the parties signed the Separation
Agreement, and his claim for retaliation under Title VII is not barred by the release.
Second, TIAA asserts that the allegations in Boyd’s Complaint fail to raise a plausible
claim for retaliation under Title VII. Title VII § 704 makes it unlawful for an employer to
discriminate against an employee “because he has opposed any practice made an unlawful
employment practice by this subchapter, or because he has made a charge, testified, assisted, or
participated in any manner in an investigation, proceeding, or hearing under this subchapter.” 42
U.S.C. § 2000e-3 (2012).
At the motion to dismiss stage in a Title VII case, a plaintiff need only “allege facts
sufficient to state all the elements” of a prima facie case for retaliation. Templeton v. First Tenn.
Bank, N.A:, 424 F. App’x 249, 250 (4th Cir. 2011) (per curiam) (unpublished). In order to raise a
prima facie case, a plaintiff must allege facts supporting three elements: “(1) that [he] engaged in
a protected activity; (2) that [his] employer took an adverse employment action against [him];

8

Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 8 of 11

and (3) that there was a causal link between the two events.” EEOC v. Navy Fed. Credit Union,
424 F.3d 397, 405-06 (4th Cir. 2005).
Boyd’s Complaint sufficiently alleges that he engaged in a protected activity. Title VII
protects the activity of “employees who pursue their federal rights” by reporting or charging
unlawful employment activity. U.S. EEOC v. Lockheed Martin Corp., 444 F. Supp. 2d 414, 417
(D. Md. 2006) (quoting EEOC v. Bd. of Governors of State Colls, and Univs., 957 F.2d 424, 427
(7th Cir. 1992)). By filing two Charges of Discrimination against TIAA with the EEOC
asserting racial discrimination, Boyd certainly pursued his federal rights. Thus, his conduct is
clearly a protected activity. See U.S. EEOC, 444 F. Supp. 2d at 417 (using “retaliation against
employees who . . . file an EEOC charge” as an example of a protected activity); see also, Price
v. Thompson, 380 F.3d 209, 212 (4th Cir. 2004) (“Price’s EEOC claim is protected activity . . .

Boyd also sufficiently alleges that TIAA took an adverse employment action against him.
To satisfy Title VII, an adverse employment action must be material—one that “might have
‘dissuaded a reasonable worker from making or supporting a charge of discrimination.’”
Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 68 (2006) (quoting Rochon v. Gonzales,
438 F.3d 1211, 1219 (D.C. Cir. 2006)). Thus, it must actually “produce^ an injury or harm.” Id.
at 67. Such action is prohibited whether taken against a current or former employee. Robinson
v. Shell Oil Co., 519 U.S. 337, 346 (1997).
Boyd alleges that TIAA retaliated against him by “interfering with his job search.”
(Compl. at 5, | 39). Specifically, he alleges that TIAA falsely amended his U-5 form and
provided negative referrals to prospective employers. (Compl. at 5,

39). Other courts have

allowed cases to proceed past the motion to dismiss stage based on an allegation of negative

9

Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 9 of 11

i:

employment references. See e.g., Harris v. Ann’s House ofNuts, No. 4:14-cv-185, 2015 WL
3902017, at *4 (E.D.N.C. June 24, 2015); Alberts v. Wheeling Jesuit Univ., No. 5:09-cv-109,
2011 WL 2132983, at *4 (N.D. W. Va. May 25, 2011). As alleged, the combination of the
Amendment Explanation and TIAA’s negative referrals led potential employers to deny
employment to Boyd. Employers generally rely on references, and employers in the securities
industry rely on information in the U-5 form in making hiring decisions. As a result, a
“reasonable worker” might be dissuaded from making a charge of discrimination if he knows
that he will likely be seriously hindered in his search for employment elsewhere as a result of
making his charge. See White, 548 U.S. at 68. Thus, providing negative referrals and false
information in a U-5 form are sufficient to qualify as adverse employment actions.
Finally, Boyd sufficiently alleges that TIAA’s adverse employment action was caused by
his decision to engage in protected activity. Alleging causation in a prima facie retaliation case
is “less onerous” than meeting the but-for causation standard ultimately required to prove
retaliation. Foster v. Univ. ofMaryland-Eastern Shore, 787 F.3d 243, 251 (4th Cir. 2015).
Close temporal proximity between when the employer learns of the protected activity and the
adverse employment action can be enough to make a prima facie claim for causation. Id. at 253.
Prima facie causation can also be found when the adverse employment action occurs “upon the
employer’s first opportunity” to carry out a harmful act to the employee. Templeton, 424 F.
App’x at 251; see also Price, 380 F.3d at 213 (assuming without deciding that “an adverse action
taken at the first opportunity satisfies the causal connection element of the prima facie case”).
At this stage of the litigation, it is unclear exactly at what point TIAA first learned of
Boyd’s EEOC charges. However, it is clear that Boyd participated in an EEOC mediation with
TIAA on June 16, 2015 and that TIAA submitted its revised U-5 form on July 22, 2015. This

10
Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 10 of 11

r

f close temporal proximity is sufficient to show causation. And to the extent that T1AA knew
about the EEOC charges months beforehand, the allegation that TIAA took the adverse
employment action at its “first opportunity”—when it filed the amended U-5 form—establishes
sufficient prima facie causation to survive a motion to dismiss.
Thus, Boyd’s Complaint sufficiently alleges all of the requisite elements of a prima facie
claim for retaliation under Title Vll and TIAA’s motion to dismiss Boyd’s claim for retaliation
must be denied.
III. CONCLUSION
For the forgoing reasons, Defendant’s Motion to Dismiss for Failure to State a Claim is
hereby DENIED.
SO ORDERED.

Signed: September 20, 2017

Graham C. Mullen
United States District Judge

11

Case 3:17-cv-00224-GCM Document 12 Filed 09/20/17 Page 11 of 11

